OFFICE OF THE DISTRICT ATTORNEY
Fourth Judicial District
105 East Vermijo
Colorado Springs, CO 80903

Daniel H. May
District Attorney

ADMINISTRATION
(719) 520-6000 \ FAX (719) 520-6211

Kim L. Kitchen
Assistant District Attorney

June 19, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Marcus Lee Robinson v. Colorado, No. 19-1218
Dear Mr. Harris:
In a letter dated May 26, 2020, the Court requested that a response to Mr.
Robinson’s petition for a writ of certiorari be filed on or before June 25, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, an extension of
time through Monday, July 27, 2020, within which to file a response.
An extension is necessary because undersigned counsel needs additional
time to conduct the necessary research to respond to the claims in the petition for a
writ of certiorari. In addition, as a result of the ongoing pandemic, counsel has
been tasked with helping to create a plan to ensure that the rights to a speedy and
public trial for thousands of defendants in the Fourth Judicial District will be
honored.
Sincerely,

Doyle Baker
Senior Deputy District Attorney

cc: Stuart Banner, Counsel for Marcus Lee Robinson

